<html>
<title> - THE ROLE OF MARITIME AND AIR POWER IN DOD'S THIRD OFFSET STRATEGY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








                         [H.A.S.C. No. 113-131]
 
   THE ROLE OF MARITIME AND AIR POWER IN DOD'S THIRD OFFSET STRATEGY

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            DECEMBER 2, 2014
                            

                                     
[GRAPHIC] [TIFF OMITTED] 





                                      ________
                             
    
                             U.S. GOVERNMENT PUBLISHING OFFICE
     91-816 PDF                      WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                         

                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
BRADLEY BYRNE, Alabama
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                        
                        
                               (II)
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, December 2, 2014, The Role of Maritime and Air Power in 
  DOD's Third Offset Strategy....................................     1

Appendix:

Tuesday, December 2, 2014........................................    25
                              ----------                              

                       TUESDAY, DECEMBER 2, 2014
   THE ROLE OF MARITIME AND AIR POWER IN DOD'S THIRD OFFSET STRATEGY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Brimley, Shawn, Executive Vice President and Director of Studies, 
  Center for a New American Security.............................     5
Hunter, Andrew, Director, Defense-Industrial Initiatives Group, 
  and Senior Fellow, International Security Program, Center for 
  Strategic and International Studies............................     7
Martinage, Robert, Senior Fellow, Center for Strategic and 
  Budgetary Assessments..........................................     3
Ochmanek, David, RAND Corporation................................    10

                                APPENDIX

Prepared Statements:

    Brimley, Shawn...............................................    44
    Forbes, Hon. J. Randy........................................    29
    Hunter, Andrew...............................................    54
    Martinage, Robert............................................    32
    Ochmanek, David..............................................    68

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
   THE ROLE OF MARITIME AND AIR POWER IN DOD'S THIRD OFFSET STRATEGY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                         Washington, DC, Tuesday, December 2, 2014.
    The subcommittee met, pursuant to call, at 4:24 p.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Gentlemen, thank you so much for your patience 
and putting up with us as we had these votes, and we are sorry 
to kind of flip you around.
    We are kind of waiting for Mr. Langevin to get here. He is 
on his way. Mr. Courtney is ill and is not going to be with us. 
So if it is okay with you, I am going to go ahead and do the 
opening statement that we had planned to do. We weren't going 
to do that in the interest of time, but since we are waiting 
for Mr. Langevin, we will do that.
    Today, the subcommittee convenes to receive testimony on 
the role of seapower and airpower in DOD's [Department of 
Defense] Defense Innovation Initiative offset strategy.
    Our panel of distinguished guests testifying before us are 
Mr. Robert Martinage, Senior Fellow, Center for Strategic and 
Budgetary Assessments; Mr. Shawn Brimley, Executive Vice 
President and Director of Studies for the Center for a New 
American Security; Mr. Andrew Hunter, Director, Defense-
Industrial Initiatives Group, and Senior Fellow, International 
Security Program, Center for Strategic and International 
Studies; Mr. David Ochmanek, from the RAND Corporation.
    And, gentlemen, we thank you for being with us today.
    This past summer, Defense Secretary Chuck Hagel concluded 
in a speech at the Naval War College that we are entering an 
era where American dominance can no longer be taken for 
granted. This is a stunning admission that deserves the full 
and undivided attention of the Congress.
    Today, states like China, Russia, Iran, and North Korea are 
investing in precision-guided munitions, advanced sensors, 
undersea warfare, unmanned systems, and offensive cyber and 
space capabilities to alter the military balance with the 
United States.
    Nowhere are these risks more evident than in the Indo-
Pacific region and specifically Northeast Asia, where the 
People's Republic of China is using its growing economic and 
military power to coerce its neighbors and challenge the 
current American-led order.
    China's investments in what it calls a 
``counterintervention strategy'' are calling into question our 
ability to project power, degrading escalation dominance, 
forcing allies to doubt the credibility of our deterrent, and 
imposing costs on current joint force capabilities that will 
make it increasingly difficult to sustain the military edge.
    In recent years, we witnessed various responses to these 
emerging challenges, including the establishment of the Air-Sea 
Battle Office, new weapons programs like the Long Range Anti-
Ship Missile, and operational initiatives like the Air Force is 
pursuing in the Pacific. These efforts are all very much 
necessary, but they illustrate a larger concern: Alone and 
unguided by a true long-range strategic planning process, they 
are insufficient to prepare the Department of Defense for the 
future.
    When Deputy Secretary of Defense Bob Work began discussing 
a new offset strategy this past summer, this subcommittee took 
notice. I read the available literature on the offset strategy 
of the late 1970s and the ``New Look'' of Eisenhower initiated 
in the 1950s and found in this history a useful analogy for 
today. Just like during these periods, we face new military 
operational dilemmas that cannot be resolved in our favor by 
doing more of the same.
    I believe that the concept of peace through strength 
continues to be a sound maxim for guiding our defense policy, 
but, given the capabilities and new warfighting concepts our 
competitors are adopting, the answer cannot be just to build 
more military strength but to develop and invest in the right 
type of military strength.
    We need to ask tough questions about the military 
competitions we find ourselves in, work to match our inherent 
military advantages and disadvantages against those of our 
competitors, and invest our time, energy, and resources in new 
ways to exploit our advantages and shift the military balance 
back in our favor.
    I understand the Department of Defense has initiated the 
Defense Innovation Initiative to develop a new offset strategy 
to prepare the United States for emerging warfighting regimes. 
While I look forward to future testimony from the Pentagon 
about this effort, today's hearing provides an opportunity to 
enhance this subcommittee's understanding about the concept of 
an offset strategy and potential options the Pentagon can 
consider in pursuing this new initiative.
    Finally, there is one important distinction that I believe 
needs to be made concerning the offset strategy from the 1970s. 
While there was a tremendous amount of intellectual capital and 
research and development dollars invested during this period to 
develop an offset for Soviet advantages, the resources to fund 
this effort never materialized. It was not until the Reagan 
military buildup in the early 1980s that the benefits of 
capabilities like stealth, precision-guided munitions, and 
sensors could be fielded in a way that actually exploited these 
new technologies and shifted the military balance in our favor.
    Today, we face a similar dilemma. Absent a reversal of 
sequestration, we can develop brilliant ideas for a new offset 
strategy and still fall far short of our objective.
    I again thank our panel for being here to testify and look 
forward to your testimony.
    And, with that, we are still waiting for Mr. Langevin, but 
Ms. Hanabusa has joined us, and we are glad always to have her. 
And it looks like Mr. Kilmer is making his way down, and we 
certainly have Mr. Byrne with us. So we are going to go ahead 
and proceed with our testimony if that is okay.
    With that, Mr. Martinage, I think you are first up. Is that 
my understanding?
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 29.]

   STATEMENT OF ROBERT MARTINAGE, SENIOR FELLOW, CENTER FOR 
              STRATEGIC AND BUDGETARY ASSESSMENTS

    Mr. Martinage. Chairman Forbes, members and staff of this 
distinguished subcommittee, thank you for the opportunity to 
share my views on the implications of a third offset strategy 
on air and maritime forces.
    I would like to request that my full written statement be 
submitted for the record.
    Mr. Forbes. Without objection, all of the written 
statements will be submitted for the record.
    Mr. Martinage. While several important lessons with 
contemporary relevance can be drawn from the New Look in the 
1950s and the offset strategy adopted in the 1970s, I would 
like to focus my remarks this afternoon on the development of 
what Deputy Secretary of Defense Robert Work has dubbed a third 
offset strategy.
    I would like to share my thoughts on four issues. First, 
why is an offset strategy needed? Or, put another way, what is 
the operational problem that we need to solve? Second, what 
enduring capability advantages might we leverage to enable a 
new operational approach to power projection? Third, what kind 
of shifts in the current DOD investment portfolio would be 
needed to enable this new concept of operations? And, finally, 
what isn't a third offset strategy?
    So, to begin, we need a new offset strategy simply because 
traditional sources of U.S. military advantage are being eroded 
by the maturation and proliferation of disruptive technologies, 
most notably anti-access and area denial [A2/AD] capabilities, 
to state and nonstate actors alike.
    While China's ongoing military modernization represents the 
pacing threat in the Asia-Pacific, prospective adversaries in 
other key regions around the globe are also acquiring and 
fielding a wide range of A2/AD capabilities to exploit U.S. 
vulnerabilities.
    This trend is clear and disconcerting. Absent a major 
change in how the U.S. military projects power, its ability to 
deter aggression, reassure allies, and defend U.S. security 
interests will be increasingly challenged in the years ahead.
    More specifically, the U.S. military faces four core 
operational problems that will become more severe over time. 
First, close-in regional bases--ports, airfields, ground 
installations--are increasingly vulnerable to attack in a 
growing number of countries around the world. Second, large 
surface combatants and aircraft carriers at sea are becoming 
easier to detect, track, and engage extended-range from an 
adversary's coast. Third, nonstealthy aircraft are becoming 
more vulnerable to being shot down by modern integrated air 
defense networks. And, space is no longer a sanctuary from 
attack.
    Given the increasing scale and diversity of these threats, 
trying to counter them symmetrically with tailored forces or 
competing missile for missile is likely to be both futile and 
unaffordable over the long run. The United States cannot afford 
to simply scale up the current mix of joint power projection 
capabilities. Similarly, while active defenses and 
countermeasures may be tactically effective and operationally 
useful in some situations, they must not be allowed to crowd 
out offensive capability and capacity, which is the foundation 
upon which deterrence is built.
    Turning now to my second point, to solve this growing 
problem, I believe we should take advantage of U.S. core 
competencies in unmanned systems and automation, extended-range 
and low-observable air operations, undersea warfare, and 
complex systems engineering and integration.
    Importantly, when I say ``core competency,'' I don't mean 
just technology. It is not just about gadgets but, rather, the 
combination of technology, our industrial base, skilled 
manpower, training, doctrine, and hard-to-learn practical 
experience that confers the capability advantage that is 
difficult for rivals to duplicate or counter.
    As part of a new offset strategy, these enduring U.S. 
capability advantages could enable U.S. power projection across 
the threat spectrum to deter aggression, reassure our friends 
and allies, and defend our national security interests.
    More specifically, they could provide the basis for a 
global surveillance and strike network that would be balanced, 
in that it would comprise a mix of low-end and high-end 
platforms aligned to a widely varying threat environment; 
resilient, in that it would be geographically distributed with 
less dependence upon close-in bases, have greatly reduced 
sensitivity to enemy air defense capabilities, and be 
significantly more tolerant of disruptions to space-based 
systems.
    It would be responsive, in that a credible surveillance 
strike presence could be generated quickly by taking advantage 
of rapid global reach and survivable forward presence. And, 
lastly, it would be scalable, in that the network could be 
expanded to influence events in multiple locations around the 
world concurrently.
    While many elements of the U.S. military would have 
important roles to play in a future global surveillance and 
strike network, it would emphasize air and maritime forces. In 
particular, it would leverage increasingly autonomous unmanned 
systems, given their advantages in terms of ultra-long mission 
endurance and low lifecycle costs relative to manned platforms.
    So now to my third topic: What shifts in the defense 
investment portfolio would we need to realize this type of new 
operational concept?
    I address this question in considerably more detail in my 
written statement, but, in short, I think the portfolio needs 
to be rebalanced in three ways: increase space resiliency and 
fielding hedges against degradation of space-based 
capabilities; expanding undersea payload capacity and 
flexibility; and, third, increasing the combat radius and 
survivability of land- and sea-based airpower.
    Simply put, it is imperative to rectify the growing 
imbalance between forces that are able to operate only in 
permissive environments versus those that can operate in non-
permissive environments as well.
    So now to my fourth and final topic, which is: What isn't 
the third offset strategy, in my view? Three quick points.
    First, it is not a comprehensive national defense strategy, 
let alone a national security strategy. It does not address 
every threat facing the Nation, but, rather, should focus more 
narrowly on restoring and sustaining our conventional power 
projection capability and capacity, which is a sine qua non of 
a superpower and the bedrock of deterrence.
    Second, it is not about offsetting sequestration or the 
Budget Control Act. Don't get me wrong; I strongly support 
rescinding the Budget Control Act, eliminating sequestration, 
and funding defense at a higher level. That said, the changes 
in the defense investment portfolio that I outlined earlier are 
needed irrespective of the budget level.
    Third, it is not just about technology. It is about 
identifying the operational problems that we face, leveraging 
our enduring capability advantages to address them, and 
technology is just but one component of that.
    Lastly, I would just like to conclude by saying that we 
just cannot afford to continue the current business-as-usual 
approach to power projection nor plan on having the resources 
and time to rectify the many problems with the current path 
once they become fully manifest. So it is really essential for 
Congress, and this committee in particular, to take an active 
role in driving the formulation and implementation of a third 
offset strategy.
    I look forward to your questions and discussion. Thank you.
    [The prepared statement of Mr. Martinage can be found in 
the Appendix on page 32.]
    Mr. Forbes. Thank you, Mr. Martinage.
    Mr. Brimley.

   STATEMENT OF SHAWN BRIMLEY, EXECUTIVE VICE PRESIDENT AND 
    DIRECTOR OF STUDIES, CENTER FOR A NEW AMERICAN SECURITY

    Mr. Brimley. Thank you, Chairman Forbes, members and staff, 
for the opportunity to testify. I want to acknowledge my co-
panelists, whose work I very much admire.
    I want to thank this committee for delving into the issue 
of how the Pentagon's new Defense Innovation Initiative can be 
fully harnessed for the long-term military technical 
competition unfolding today.
    It is a contest over military technical superiority and 
whether the U.S. can sustain its advantage deep into the 21st 
century or be overtaken by its competitors. This strategic 
competition will be played out over decades, and it is one the 
U.S. could very well lose.
    America's Armed Forces must project and sustain power 
across oceans and be able to perform complex offensive and 
defensive operations in all types of geographic terrain and in 
all operating domains. No other nation-state requires this kind 
of global power projection capability to adequately protect its 
national interests. The U.S. is unique in this regard.
    But after over 25 years of U.S. power projection being the 
source of our unique advantage, today it forms the basis for a 
long-term military competition.
    To properly frame the so-called third offset strategy, it 
is necessary to place it in context. In my written statement, I 
describe how military history can be divided into two basic 
eras or regimes: the unguided-weapons regime and the guided-
weapons regime.
    The key characteristic of the unguided-weapons regime was 
that most munitions that were thrown, shot, fired, launched, or 
dropped ultimately missed their targets. Therefore, in order to 
maximize success at the point of attack, commanders would need 
to aggregate their forces to achieve a--often achieve numerical 
superiority.
    The crucible of World War II and the early Cold War period 
drove the development of two alternative ways for the U.S. to 
compensate or offset the numerical advantages our adversaries 
often enjoyed.
    The first offset strategy centered on atomic weapons. The 
massive destructive--the destructive power inherent in a 
nuclear blast obviated the need for much accuracy. This was 
initially attractive to the United States as a means to 
compensate for insufficient land forces in Europe, but as the 
Soviet Union approached basic parity in the nuclear balance, 
the advantage that the U.S. enjoyed faded quickly. This 
perceived erosion in U.S. deterrence drove the search for a new 
way to offset Soviet conventional military power.
    The second offset strategy that reduced the need for mass 
on the battlefield came in the form of guided conventional 
weapons that actively corrected their trajectories after being 
fired, released, or launched. Transformative technologies like 
stealth, the Global Positioning System, and the broader 
revolution in computer networking acted as a critical means to 
employ guided munitions against an adversary. Put simply, 
guided weapons ushered in an entirely new warfighting regime, 
one in which accuracy became independent of range.
    Because the U.S. moved first and moved decisively into the 
guided-munitions era, our Armed Forces gained a competitive 
advantage that helped to reinforce our conventional deterrent 
and was an influential variable, I think, in how the Cold War 
ended.
    For a quarter-century, the United States has continued to 
benefit from its initial first-mover advantages in guided 
munitions. But as both Secretary Hagel and Deputy Secretary 
Work, among others, have recently described, we are fast 
approaching a world in which the guided-munitions regime is 
fully mature, with a much broader range of players now fully 
invested. U.S. defense planners must now assume that future 
adversaries will employ sophisticated battle networks and 
advanced guided munitions to oppose U.S. military forces.
    We see this dynamic being played out most clearly in Asia, 
where China is moving quickly into the guided-weapons era with 
a goal to establishing a degree of guided-weapons parity in an 
extensive maritime contested zone.
    So I believe the essential strategic challenge the Pentagon 
faces is how to ensure that our Armed Forces can deter and 
defeat an adversary that has established a degree of guided-
weapons parity. We have never encountered this kind of 
strategic environment before, and I believe this has to be the 
primary focus of the Pentagon's strategic planning and force 
development efforts.
    So the third offset strategy will need to explore many 
issues. For instance, in my mind, the Pentagon needs to 
determine how best to, one, defend against long-range guided 
munitions at more favorable cost exchange ratios; two, ensure 
U.S. aircraft carriers can project and sustain striking power 
beyond adversary missile ranges, and I think this committee has 
done great work in this regard; three, establish greater 
magazine capacity to ensure our forces can engage in multiple 
rounds of a salvable competition with an adversary employing 
guided munitions; and, four, maintain resilience in our own 
guided-munitions battle networks as plausible adversaries 
develop ways to contest and degrade our command and control 
links.
    I would encourage Members to review my colleague Bob 
Martinage's recent report on this topic, where he lays out a 
series of strategy and spending priorities that I believe 
constitute an excellent guide for the budget cycles ahead.
    But as you adjudicate, scrutinize, and shape DOD's strategy 
and spending priorities in the years ahead, I would encourage 
you to hold the Pentagon accountable for the priorities 
articulated by its leadership and also hope that you assist 
them in providing the top cover necessary for implementing the 
choices in the years ahead.
    DOD, as you know, is a massive bureaucracy that tends to 
resist even needed course corrections. But I think a window of 
opportunity now exists where the strategic environment and the 
fiscal pressure require real choices, and the leadership here 
on Capitol Hill and at the Pentagon can firmly move the 
Department such that America's military technical advantage can 
be sustained in the decades ahead.
    Thank you again for having me.
    [The prepared statement of Mr. Brimley can be found in the 
Appendix on page 44.]
    Mr. Forbes. Thank you, Mr. Brimley.
    Mr. Hunter.

   STATEMENT OF ANDREW HUNTER, DIRECTOR, DEFENSE-INDUSTRIAL 
 INITIATIVES GROUP, AND SENIOR FELLOW, INTERNATIONAL SECURITY 
    PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Hunter. Chairman Forbes, Mr. Langevin, thank you very 
much for the opportunity to testify today on the Department of 
Defense offset strategy and its implication for the role of 
maritime and air power.
    It is an honor to appear as a witness before this 
committee, my former professional home, and a place where the 
critical national security questions of our time have been and 
I believe always will be thoroughly reviewed.
    And I can't help but take notice of Chairman Skelton's 
portrait. It was an honor to serve him on the staff, and a 
pleasure to see so many of his colleagues with whom he served 
and for whom he cared so deeply.
    The topic of today's hearing is an important one. The 
Department of Defense's recently announced Defense Innovation 
Initiative, which is tasked to develop and support a new offset 
strategy, is a serious effort to achieve an important strategic 
objective. And that objective is to leverage innovation, both 
operational and technological, to extend the Department's 
advantage over potential adversaries even if those adversaries 
engage in carefully planned aggressive and increasingly 
successful efforts to erode that advantage.
    The Defense Innovation Initiative must establish a concrete 
plan to achieve this objective, and Congress must ensure that 
the Department is resourced and organized to pursue that plan.
    Now let me propose a few ways for the committee to assess 
the offset strategy as it is being developed.
    It is critical that the use of innovation as an offset 
strategy is integrated within a broader national strategy. Only 
in a broad strategic context can it be determined which 
capabilities, and therefore which innovative concepts and 
technologies, merit enhanced investment. The 2012 Defense 
Strategic Guidance, the QDR [Quadrennial Defense Review], 
ultimately the National Security Strategy must provide this 
strategic context.
    If you read these strategic documents today, they specify a 
remarkably wide range of missions U.S. forces will need to be 
able to perform in the future, and they cite the need for new 
capabilities in the critical domains of cyber and space. Now, 
to address a mission set this diverse, the next offset strategy 
will have to focus on capabilities with a broad array of 
applications, from the high end to the low end of conflict.
    I believe there is a real danger of over-specifying the 
problem, particularly if you are specifying it at one end of 
the spectrum solely. As such, it is my view that the next 
offset strategy should consist of a set of targeted 
capabilities that enable new operational concepts and be paired 
with a technology investment roadmap.
    I don't believe the next investment strategy--offset 
strategy should be a list of platform-specific investments. 
Now, that necessary step comes later and, I think, should come 
through a separate process, through the budget process.
    To be effective, the next offset strategy needs to guide 
action by industry as well as by the Department of Defense so 
that the Department's investments are fully leveraged. 
Communication with industry, therefore, including to the 
maximum extent possible with nontraditional suppliers, is a key 
enabler that will--as will the ability to harvest commercial 
technologies. And the strategy must be flexible enough to 
adjust for unforeseen adversary capabilities.
    And, lastly, I want to point out that there are inevitably 
tradeoffs between developing new capabilities and operational 
concepts and then maintaining existing ones. We must, however, 
be careful not to throw out the baby with the bathwater as we 
shift our investment strategy.
    Now, I believe future adversaries are likely to pursue 
cost-imposing strategies that seek to raise the economic and 
military stakes for U.S. military actions to levels that they 
believe will be unacceptable to the American public. The U.S. 
must pursue capabilities that enable effective responses at 
acceptable costs.
    I do not claim to be able to lay out a fully developed 
offset strategy for you today that meets all of the 
requirements I have described so far. Developing such an 
approach will take time and much discussion with relevant 
stakeholders, and I think war-gaming and experimentations to 
test out these ideas will be critical.
    However, it is my expectation that the next offset strategy 
will extend many of the capabilities developed as part of the 
last offset strategy, as they are likely to be highly relevant 
when addressing future challenges.
    Most notably, I believe battlespace awareness capabilities 
will be critical, if not the critical element of future 
conflicts, both high-end and low-end. Given the rapid pace of 
development in areas such as data mining, sensor fusion, image 
and video processing, significant advances in battlespace 
awareness are likely to become available in coming years. And 
such advances can significantly enhance the ability of U.S. 
forces to plan and execute successful missions at acceptable 
cost.
    Denying battlespace awareness to adversaries may present 
even greater opportunities. The ability of U.S. forces to act 
cooperatively with partner forces can provide access to 
additional sensors and information that enhance our awareness 
while significantly complicating potential adversaries' ability 
to impose costs on the United States.
    These capabilities readily lend themselves to the air and 
maritime realm. AWACS [Airborne Warning and Control System], 
Combined Engagement Capability, are networked approaches that 
were pioneered by the Air Force and Navy and provide exactly 
the kind of the battlespace awareness that is likely to be key 
in future conflicts. The Marine Corps Distributed Operations 
concept applied a similar conceptual approach to control of 
terrain in Iraq and Afghanistan. And the Army and JIEDDO [Joint 
Improvised Explosive Device Defeat Organization] developed 
integrated sensor networks for the protection of U.S. forward 
operating bases that achieved significant enhancements in 
capability. These approaches can be extended and applied to 
other mission areas.
    The support for the funding and flexibility needed for the 
Department to adopt innovative approaches is far and away the 
most important role Congress can play in the development of the 
next offset strategy. In an era of declining budgets, it is all 
too easy to decrement investments in innovation in order to pay 
readiness bills or to pay bills resulting from the failure to 
make needed changes in force structure or compensation.
    The risk to innovation is by no means theoretical. CSIS 
[Center for Strategic and International Studies] research shows 
that contract spending for research and development dropped by 
21 percent in fiscal year 2013, the first year of 
sequestration, significantly more than the overall 10 percent 
drop in the defense budget under sequestration and more than 
the 16 percent drop in all contract spending. It will require 
the active support of Congress to ensure that innovation is 
enabled and not stifled by these dynamics.
    A significant opportunity for Congress to facilitate the 
next offset strategy comes from reducing barriers to the 
adoption of innovation approaches. Such approaches require 
relatively open communication with industry and careful 
tailoring of the acquisition process. For systems under design, 
modular open systems approaches can be utilized to enable the 
rapid incorporation of innovative capabilities throughout 
system lifecycles.
    Most critically, Congress can support easier access to 
commercial technologies. Existing statutory requirements, such 
as the Truth in Negotiations Act [TINA] and the Cost Accounting 
Standards [CAS], were designed to protect the government's 
interest in acquiring technology from firms that engage in both 
government and nongovernment work. While these statutes address 
real issues in the government-industry relationship, the 
implementation mechanisms for these systems are not well 
aligned with modern commercial practices. A careful review of 
TINA and CAS could substantially enhance the Department of 
Defense's ability to access cutting-edge technology.
    In closing, I commend the committee's decision to focus on 
DOD's next offset strategy at this hearing and recommend the 
committee continue to follow this effort closely. Congressional 
support for change is likely to prove decisive to success.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 54.]
    Mr. Forbes. Mr. Hunter, we are glad to have you back before 
the committee, and I know Chairman Skelton would be very proud 
of where you have gone in your career.
    Mr. Ochmanek.

         STATEMENT OF DAVID OCHMANEK, RAND CORPORATION

    Mr. Ochmanek. Thank you, Chairman Forbes, Mr. Langevin, 
other members and staff of the committee. And thank you for the 
opportunity to testify before you today.
    You have posed a difficult and important question here. We 
know that maritime and air forces will play crucial roles in 
any future conflict against the most capable adversaries we 
face, but we don't know precisely what roles those forces will 
play. And that is because the nature of the challenge posed by 
the most capable adversaries we face, particularly those 
wielding sophisticated A2/AD [anti-access/area denial] 
capabilities, is so extensive that the United States, at this 
point, has to rethink its entire approach to power projection. 
And, therefore, it will be premature to make conclusions about 
what roles particular force elements will play.
    Members of this committee are all familiar with the types 
of threats that cause us the most concern. I won't rehash them 
here. And, as Congressman Forbes and my colleagues have 
observed, China is the leading exponent of these types of 
threats but not the only one.
    Since the end of the Cold War, we have come, rightly, to 
expect that when U.S. forces are committed to combat against 
the conventional forces of a state adversary they will win 
quick and lopsided victories. Looking to the future, when we 
think about combat against the most capable plausible 
adversaries, we will have to revise these expectations.
    In such conflicts, should they occur, U.S. forces will have 
to fight, and fight hard, for the sorts of advantages that we 
have come to take nearly for granted in conflicts over the past 
few years--air superiority, maritime superiority, space 
superiority, and the ability to operate forces forward largely 
from sanctuary. We can't take those for granted anymore.
    Put most starkly, the legacy concepts of operation that our 
forces have used so successfully in recent years will not work 
against the forces of the most capable adversaries in the 
future or, at a minimum, won't produce satisfactory results.
    The third offset strategy, which seeks to focus and 
energize technology, development, and systems engineering, is 
intended to rectify this problem, and, in response, one can 
only say, ``Bravo.'' But this effort, while necessary, will not 
in and of itself be sufficient. It will need to be supported 
and complemented by several related activities, and I will 
mention five here.
    One, DOD needs to revive and reconstitute its capacity for 
joint operational analysis and gaming. The joint community's 
ability to conduct quantitative assessments of the capabilities 
of future forces has atrophied in recent years, and this 
capability is essential for all force planning. We especially 
need more iterative, rigorously adjudicated, tabletop war games 
to allow operators to test their nascent ideas about potential 
new operational concepts against an intelligent reactive red 
team.
    Two, new approaches are required for basing and operating 
our forces in contested theaters. Too often in the war-gaming 
we have done, when the blue team tries to strengthen deterrence 
during a simulated crisis by reinforcing the theater, it ends 
up actually projecting vulnerability rather than projecting 
power, creating lucrative targets for the enemy's long-range 
precision strike assets. We need more survivable ways to base 
and operate our forces in these theaters.
    Three, we should do more to help our partners and allies 
field more capable self-defense forces. We should not try to 
solve this challenge on our own. Allies and partners can impose 
smaller-scale A2/AD challenges of their own to states that 
threaten them. And enhancements like this can't take the place 
of U.S. forces and commitment, but analysis suggests there is a 
lot of unexploited potential there.
    Four, not to be crass, DOD will need more money. It is very 
difficult to see how even a flawlessly executed third offset 
approach could be sufficient to meet growing challenges if the 
limits imposed by the Budget Control Act are not lifted in 
fiscal year 2016 and beyond.
    And, finally, number five, as Secretary Hagel has observed, 
Congress has to be a full partner in this. If DOD is going to 
spend more money on new and urgently needed capabilities, it 
will have to spend less on lower-priority programs. This will 
call for things like continued adjustments to force structure 
and end strength, garnering savings in pay and benefits, 
eliminating unneeded base infrastructure--all hard to do, easy 
to say, I know, but very important if we are going to actually 
get the level of effort against this new effort that is called 
for.
    In conclusion, I would say that the most credible deterrent 
to aggression is one that confronts the adversary with the 
prospect of failure at the operational level. Without question, 
mounting a robust defense of this nature is becoming more 
challenging for the United States, and, indeed, some people in 
this country are already saying it is too hard, it is too 
costly, we can't do it.
    But future U.S. forces, I believe, properly modernized, 
properly postured, and employed with the forces of regional 
allies and partners, should be capable of posing very serious 
obstacles to aggression by even our most sophisticated 
adversaries. This, as I understand it, is the central goal of 
the new offset strategy. I believe it is a worthy and 
achievable objective.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Ochmanek can be found in the 
Appendix on page 68.]
    Mr. Forbes. Gentlemen, thank you all for your statements, 
and thanks for your written statements.
    I am going to defer my questions until the end. And since 
Mr. Byrne was the first one at the hearing today, we are going 
to recognize him first for 5 minutes for any questions he may 
have.
    Mr. Byrne. Gentlemen, we appreciate you being here today.
    One of the things, as a new member of the committee, that 
strikes me about the position we find ourselves in is that 
decisions that were made before I got here--and I am not trying 
to second-guess them--have put us in a posture where we don't 
necessarily have the capacity to catch up as quickly as we 
would like.
    Is there one thing that you would focus on, one precise 
thing that you could tell this committee that we should focus 
on that could get us back into the game at a level that we need 
to be in?
    Those are easy questions, I know.
    Mr. Brimley. Maybe I will take the first stab at that, sir.
    I mean, I would look to the recent hearings that this 
committee has held. A good example, in my mind, is making sure 
that the carrier air wing can fully project and sustain strike 
power in these kinds of contested environments. And so making 
sure that, however the Navy or however the DOD finalizes the 
requirements on the UCLASS, the Unmanned Carrier-Launched 
Airborne Surveillance and Strike vehicle, whether it is for a 
lightly contested environment or for a more high-end 
environment, to me, that is one of the canary--a canary in the 
coal mine.
    You know, if DOD is really serious about fully exploiting 
the advantages inherent in a long-range, unmanned strike 
platform, that requirements debate is something I am paying a 
lot of attention to because that, I think--how that goes in the 
next 3 or 4 months I think will indicate how serious the 
Department is in fully moving into this more unmanned 
autonomous warfighting regime.
    We have got to find a way for the aircraft carrier to 
remain very relevant at range when faced with one of these 
high-end, anti-access/area denial challenges. If we fail to do 
that, it is hard for me to understand how we can project and 
sustain power with our allies and partners and maintain the 
conventional deterrence that we need to provide security in the 
Asia-Pacific as one example.
    Mr. Hunter. From my perspective--I recently departed the 
Department of Defense--the capability that I perceive to be the 
single most limited--the highest-demand, most limited capacity 
that the Department has is intelligence, surveillance, and 
reconnaissance. When a new mission comes on board, that is the 
thing that the COCOM [combatant commander] is most interested 
and gets the least of that they are looking for at the start of 
a conflict.
    So I would say that is a good place to look. And, frankly, 
that really informed my thinking about the criticality of 
battlespace awareness in future conflicts.
    Mr. Ochmanek. I would broaden it a little bit, Congressman. 
If we think about recent applications of U.S. military power, 
when the President presses the ``go'' button, we expect that 
with hours, if not days, U.S. forces will dominate all five 
domains of warfare--air, land, sea, space, and cyberspace. We 
have to disabuse ourselves of that notion in the future.
    So we have to find ways to reach in to the contested 
airspace, maritime space, and not only detect but also strike 
the enemy's operational centers of gravity, whether it is naval 
ships, amphibious ships making an invasion, aircraft, combat 
aircraft. And I think standoff weapons are a way to do that. 
ISR [intelligence, surveillance, and reconnaissance] systems 
that can survive in highly contested air defense environments 
are ways to do that.
    But that is sort of the single operational problem I would 
focus on as a priority.
    Mr. Martinage. To build on that, I would take it up maybe 
even one step higher and just say, when you look at the air and 
maritime investment portfolio, it is heavily weighted towards 
capabilities that operate in low- to medium-threat environments 
or permissive environments. We need to shift the balance and 
have relatively more capabilities that can project power in 
non-permissive environments, the higher-end threat 
environments.
    I know you asked for one, but I am going to have to throw 
one more in. And that is we need to do something to streamline 
the acquisition process. It takes too long to field new 
capabilities, and, you know, in many cases, they are almost 
obsolete by the time they field. And we just need to get faster 
and more agile in terms of our exploitation of R&D [research 
and development].
    Mr. Byrne. Thank you, Mr. Chairman.
    Mr. Forbes. The chair recognizes Ms. Hanabusa, who we are 
going to miss very much from this committee, and we have 
enjoyed having her and her service to our country.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chair.
    As many of you may be aware, the chairman and I had this 
wonderful series of hearings basically on what does it mean to 
pivot to Asia-Pacific. And, as you can imagine, as someone who 
represents Hawaii, when we talk about the pivot to Asia-
Pacific, I have gone on and say, well, it is an air and sea 
issue. If you know anything about how large the Pacific Ocean 
is, it is air and sea. Of course, it doesn't play well with, in 
particular, Army, because they don't like the fact that we are 
saying it is an air and sea situation.
    So isn't one of the most critical aspects that we have to 
deal with is really, I guess, the territoriality or the 
protection of the various branches and the fact that we have 
funded in the past with everyone sort of sharing equally and if 
we are pivoting to Asia-Pacific, for example, it cannot really 
continue with a, quote, ``equal share''?
    So, as we look at what is this offset strategy, don't we 
have to first begin by looking at the structure of the DOD, how 
the DOD apportions its resources? And if it continues with a 
basic assumption that everyone will share, then how do we then 
shift to the point where we are looking at, for example, 
carrier strength, submarine strength?
    You know, a very good friend of mine and mentor, Senator 
Inouye, always said to me, ``You know, we used to rule the 
seven seas after World War II. We don't do that anymore, but we 
will always rule, or we should always rule, the deep blue 
sea.''
    So, in that scenario, if you would all look at it in terms 
of the offset strategy, I can't get past the major assumptions 
that I think DOD makes. Even with the QDR that we just went 
over, DOD makes certain kinds of assumptions that I don't think 
necessarily fits in your strategy.
    Is there any one of you who wants to tackle that? And if 
you want to tell me I am wrong, that is fine too. But, you 
know, I think when we talk about the pivot, we've got issues, 
and it is in line with what you are looking at for the offset 
strategy.
    Mr. Ochmanek. Congresswoman, if I might make a suggestion 
or throw out an idea, I agree with you that when we come 
through the process of designing a concept of operations and a 
force that will be appropriate for this new demanding 
environment, things will look different. We will have different 
apportionment of roles and missions across the services, 
different budget shares, and so forth.
    But I think form follows function. And my lead-off remarks 
suggested that we don't know today exactly how we would fight 
this fight in 2020 and 2025. I think that as we figure that 
out, through analysis, experimentation, field exercises and 
tests, we will get insights about the capabilities that we 
need. And the forces, if we are successful in planning and 
fielding the appropriate force, will come along to fulfill that 
concept.
    Ms. Hanabusa. I agree with you. But let me add this, 
though. You know, if we can't know what we are going to do in 
2020 or 2025, we in Congress are making those policy calls, and 
I--after one of the CSIS hearings, as a matter of fact, I said, 
I know how we do things now. We set policy by acquisition. As 
we acquire, we are setting policy.
    And that is--2020 is right around the corner. And as we go 
through the NDAA [National Defense Authorization Act] and as we 
go through the appropriation measures, we are setting the 
policies that are going to affect 2020. So one of the most 
frustrating parts about sitting on this side has been you want 
us to wait and see what it is going to do, but we have to 
appropriate and set the authorization early on.
    So how do we come and do that and then incorporate this 
offset strategy, which I agree with? I just don't know how it 
all melds together.
    Mr. Martinage. I think you raise an excellent point. I 
mean, really, right now, we are building the Air Force and the 
Navy of 2030 and 2040 and beyond. So I think that it is an 
excellent point.
    I mean, in terms of the offset strategy in dealing with the 
challenges in the Pacific, I think, generally, basing 
resiliency and dispersion is a big issue, as well as longer-
range, more survivable aircraft--both manned and unmanned--and 
undersea, exploiting the undersea, as you said, both submarines 
and UUVs [unmanned underwater vehicles] and other payloads.
    How all that sorts out in terms of budget share, I guess we 
will need to see. But the point I would stress, though, is 
that, whether it is the offset strategy or the pivot to the 
Pacific, those aren't comprehensive national defense 
strategies. We still have other challenges around the world--
you know, subconventional aggression in Europe, you know, in 
the Ukraine, counterinsurgencies in various places in the 
world, counterterrorism. Those are all places where, you know, 
ground forces, the Army and the Marine Corps, have important 
roles to play.
    So we have to just figure out what the right capability and 
capacity balance is across these various types of 
contingencies.
    I am not sure if that exactly answered it.
    Ms. Hanabusa. Thank you.
    And I yield back.
    Mr. Forbes. Mr. Coffman is recognized for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    A couple questions. The first one is, in terms of the 
projection of seapower, the carrier has been central to that. 
And if you look at the Chinese, they realize they are never 
going to match us carrier for carrier, so they are focused on 
some, I guess you might call it an asymmetric measure or the 
anti-ship ballistic missile.
    How--I mean, is it still important for us to put so many of 
our eggs in that one basket as a platform for the projection of 
seapower?
    Anybody who wants----
    Mr. Brimley. Maybe I will just quickly.
    To build on what Mr. Martinage was talking about, you know, 
the aircraft--and knows better than I do, certainly--the 
carriers we are fielding today are going to be with us for 40-
plus years. And so, for me, as sort of a policy analyst, you 
know, and to put a pun on it, you know, that ship has sailed. 
So the question for me is, how do we make sure that that 
investment, that sunk cost----
    Mr. Coffman. Well, I mean, 11--do we maintain in the 
future----
    Mr. Brimley. That is right.
    Mr. Coffman [continuing]. 11 carriers?
    Mr. Brimley. That is right.
    So the question for me is, how do we make sure that what 
flies off of that carrier can make that investment sound when 
we look at the operational challenges we will face 5, 10, 15 
years from now?
    That is why, for me, in terms of this question, it is the 
carrier air wing that is the key. And if you can fully push the 
Navy--in my mind, if you can fully push the Navy to embrace 
what I see as the inherent benefits of moving decisively into 
the unmanned, more autonomous regime where you can really get 
some cost-benefit analysis and get an unmanned system to be 
able to penetrate and strike at distance and at range, that 
makes the aircraft carrier highly relevant even 20, 25, 30 
years out.
    A separate question is, you know, what is the long-term 
future of the capital ship? Some analysts have suggested that 
over time the A2/AD environment may get so bad that the 
competition tends to go under the surface. And you see 
indications of that now. You see senior leaders spending a lot 
of rhetorical time and effort talking about making sure we 
maintain our submarine advantages. I think that is the 
critical, sort of, corollary to your question, sir.
    Mr. Hunter. I would just say on that, I agree with the 
point about the sunk costs. We have these carriers. They 
provide incredible capability. We don't want to lose that. They 
are being threatened. And there are things that we should do in 
terms of having capabilities with increased range and with low 
observability. But that does take you down the path where the 
cost-imposing strategy is working. In other words, you are 
playing into the cost-imposing strategy, because long-range and 
very low-observable platforms tend to be fairly expensive.
    What we relied on in the past to protect the carrier was 
the fact that it was hard to find. And it is becoming 
increasingly easier to find because adversaries are using more 
networked approaches, as we did long ago.
    We simply didn't focus, I believe, on how to defeat those 
capabilities, their battlespace awareness, their ability to 
find us, because it is so new that these capabilities belong to 
anyone except us. And I think the most cost-effective way I can 
think of to go after that is to go directly after their ability 
to find and detect our assets.
    Mr. Coffman. The last question is: Speaking to airpower and 
the future of the manned bomber that the Air Force wants versus 
unmanned or existing platforms--and I think that the argument 
for the next generation of manned bomber is, well, what if, 
i.e., communications were cut off, you would still be able to 
execute a mission, versus an unmanned platform.
    I mean, in terms of the investment and the alternative uses 
of those dollars, is that a viable argument?
    Mr. Ochmanek. We did some work on that some years ago, 
Congressman. The marginal cost of actually putting human beings 
inside that platform is fairly low.
    Mr. Coffman. Okay.
    Mr. Ochmanek. And when Secretary Gates approved the 
program, he specified that it should be optionally manned so 
that we have the choice, as we field these things, to send them 
out with crews or without crews.
    Mr. Coffman. Okay.
    Mr. Ochmanek. So we will have flexibility as we build the 
overall platform to employ it in different ways.
    And you are right; how confident we are about the 
resiliency of that communication link will be a key factor in 
whether or not it will be viable as an unmanned platform.
    Mr. Coffman. Okay.
    Mr. Ochmanek. So I think we have covered--covered down on 
that.
    Mr. Coffman. Okay. Great.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Mr. Langevin is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to welcome our panel here today. Thank you for your 
testimony.
    And, Mr. Hunter, in particular, welcome back before the 
committee. It is great to see you again.
    So I appreciate the discussion that we are having and the 
comments you have made.
    And, Mr. Brimley, in particular, I appreciate the comments 
you made on UCLASS. We talk about developing the standoff 
technologies. I think these types of things are going to be 
essential.
    And in terms of what we should be doing, actually, one only 
has to look at what our adversaries are doing and what would 
hold our assets and our capabilities at risk. And, certainly, 
developing platforms that are most robust, that are standoff, 
that allow for deep penetration are the things that we need to 
focus on more heavily.
    So I am watching very closely the Pentagon's decision as 
they design the requirements on UCLASS to see where that is 
going to come down. I think that will be very telling about how 
they are thinking and if they are getting this right.
    But, obviously, innovation is going to be key to all of 
this and developing these new capabilities. And no matter which 
way the innovation tree branches, there are a few constraints 
that will be limiting factors.
    But if I could, just for a minute, to focus particularly on 
the undersea, the Virginia-class program of record is well 
known, and the trend, of course, for the number of platforms 
and the payload space that they will have, particularly as the 
SSGNs [cruise missile submarines] age out and VPM [Virginia 
Payload Module] slowly builds into the fleet. The picture in 
terms of the numbers that we need isn't necessarily a pretty 
one, particularly when we look at programs like the LDUUV 
[Large Displacement Unmanned Undersea Vehicle], whose threshold 
requirements for the integration with VPM and Virginia-class 
boats with dry-dock shelters.
    So are we investing in enough payload capacity to enable 
these future mission and technology constructs?
    And, Mr. Martinage, maybe we would start with you and go 
down the line.
    Mr. Martinage. In my view, increasing undersea payload 
capacity and flexibility is a critical thing that we need to 
look at as part of the offset strategy. I think we gain a lot 
of advantage from our undersea warfare capabilities. And, as 
you alluded to, on the current trajectory, our undersea payload 
capacity is going to shrink by over 60 percent when the SSGNs 
retire in 2028 and the declining LA [Los Angeles] class are 
retired more quickly than they are being replaced by Virginia.
    So, at the time we want to be increasing undersea capacity, 
it is actually going down rather dramatically. So the question 
is, how do we deal with that?
    One is I think, absolutely, we have to get on board with 
Virginia Payload Module. It looks like we are heading in the 
right direction, but, again, that needs to be fully funded.
    Then, looking at other options, undersea payload modules is 
a program that DARPA [Defense Advanced Research Projects 
Agency] is looking at, which would be payloads that are 
external to the submarine that could be deployed in peacetime 
or in period of crisis, but it would be a means to increase 
payload capacity but outside the submarine.
    And then, lastly, taking advantage of UUVs, like the large-
diameter UUV, and a family of UUVs, I think, is really 
critical. I think that is another high-payoff area with 
unmanned systems and automation that could help us increase the 
geographic coverage of our limited submarine fleet by having 
the unmanned systems extend their reach and their flexibility.
    The other thing is that I think we want to look at new 
types of payloads for our submarines. Right now, it is 
fundamentally torpedoes and Tomahawks. It doesn't have to be 
that way. There is a variety of new weapons that they could 
take on, in terms of electronic attack or decoys or going after 
enemy air defenses, going after aircraft. There is a wide range 
of other things submarines could do that we should actively 
explore.
    Mr. Langevin. But do we have a right balance in terms of 
investing enough in payload capacity and enabling these future 
missions? What do you think?
    Mr. Martinage. My personal view is we need to shift the 
overall composition of the fleet over time increasingly to 
undersea and shift some of the resources that currently is 
going into the surface combatant force structure and 
modernization, shifting that balance--however much we need to 
determine--more towards the undersea for the reasons that we 
have talked about.
    Mr. Langevin. Thank you.
    Anyone else want to comment?
    Mr. Ochmanek. I think, looking forward, undersea launch 
platforms and standoff attack means are good bets for this 
contested environment. And VPM is the option immediately 
available to us.
    Mr. Langevin. So could I ask this? Are the current 
organizational structures within the services robust enough, 
independent enough, and agile enough to drive innovative 
tactics, procedures, and technologies and the like into the 
operational forces? And how does today's status compare to the 
structure that produced the innovative ideas of past offset 
strategies?
    Mr. Hunter. I think this builds a little bit on Ms. 
Hanabusa's question, as well, because the question is, you 
know, can the services accept innovation? Because it does 
threaten existing capabilities, existing infrastructure for 
which there are strong advocates within the Department.
    And one of the reasons why I recommended that the strategy 
be focused more on capabilities than on platforms is because I 
think, when you get into platforms, it is inevitably, well, I 
have my platform and you have your platform and now we are 
going to fight each other over who wins.
    I think at the level of capability, it is not necessarily--
as in some cases there are clear service, you know, areas of 
excellence. But at the level of capability, all of the services 
have an opportunity to at least make a case for how they can 
provide that capability, what can they bring to the table. So I 
think it changes the conversation a little bit less to one 
about rice bowls and more about what folks can actually do and 
bring to the table.
    Mr. Langevin. Thank you.
    Mr. Martinage. On that point, I would just reiterate a 
point that Dave Ochmanek made during his presentation about the 
need for joint operational analysis and war-gaming. I think 
that is one of the tools that could help build confidence that 
these are new operational concepts that we need to exploit and 
these are the types of enabling technologies we need for those 
concepts to work. And I think that is just an important tool 
for building that confidence and driving that change.
    Mr. Langevin. Very good. I share that. Thank you.
    I yield back, Mr. Chairman.
    Mr. Forbes. As you guys know, Mr. Langevin has been a 
leader in these issues on this committee and the full 
committee, and we appreciate his leadership in all of that.
    I want to wrap up now by telling you two things. First of 
all, this has been a very important hearing for us, and it is 
just the beginning. And we are probably going to follow up with 
some written questions, if that is okay with you, to get on the 
record.
    Mr. Byrne and I were in a meeting earlier today when we 
heard the majority leader give us a cute little analogy, but he 
talked about four frogs sitting on a log--or maybe he said 
five. I forgot what it was. But let's say it was five frogs 
sitting on a log, and four of them decided to jump off. How 
many was left? And the answer was five, because there is a big 
difference between deciding and doing. And so we want to make 
sure that we go from just talking about this to doing it.
    And assuming we do that, we--Mr. Brimley, you have been 
very clear that this shouldn't be a defense strategy. I think 
everybody is pretty much agreeing with that, that we should 
narrow the focus of this down.
    So I am going ask you four questions. You can pick any one 
of them you want, or all of them, and use it as, kind of, each 
of your closing remarks.
    But first thing, all of our strategies and our budgets are 
built on assumptions. If you had to pick two of the assumptions 
that we are using today that you think are wrong or either 
could very probably be wrong, what would those two assumptions 
be?
    The second thing is: How do we do what Mr. Brimley has 
suggested we do and focus our efforts? In other words, if we 
weren't going to shotgun this and bring it into a focus, the 
next two steps that we take from here, what would you recommend 
that those two steps be?
    And then the third one is: This a partnership, but more and 
more this is no longer just a partnership between DOD and 
Congress; it is also the private sector. And we are depending 
more and more upon their creativity and what they bring to the 
table. How do we get them involved in this process but yet try 
to protect our intellectual property rights so that we are not 
having all this stolen around the globe?
    And then the fourth part of that, each of you have 
mentioned the importance of our allies. How do we do more to 
encourage our allies to be a part of this strength thing?
    And, Mr. Ochmanek, why don't we start with you, and we will 
just work backwards down the line and finish up.
    Mr. Ochmanek. Thank you, Mr. Chairman. I will take a swing 
at two of those pitches.
    First, with regard to the next two steps, not to be a 
broken record on this, but I think careful analysis of the 
problem can help us focus from the outset on what we think the 
most important operational challenges are.
    As we discussed before we came in here, the people--the 
giants who gave us the offset strategy from the 1970s that were 
so successful didn't wake up every morning with vacuous 
thoughts about how to transform the force. They woke up trying 
to solve discrete operational problems of enduring importance: 
How do I attrit and delay the second echelon of Soviet Army 
forces in Central Europe in the face of a very robust air 
defense?
    And that is the kind of focused work that can help a 
strategy like this really make rapid progress toward innovating 
on the things that our future combatant commanders most need. 
So that would be step one.
    Mr. Forbes. And if I could impose on you----
    Mr. Ochmanek. Yes, sir.
    Mr. Forbes [continuing]. Go ahead and take that step. If 
you were there and you said, ``What do we need to be focusing 
that analysis on?'', give me two suggestions that you would put 
forth.
    Mr. Ochmanek. Two have been mentioned here. One is finding 
ways that when we project power forward that the forces we 
project are survivable so that we are not inviting an attack by 
our adversary, we are not creating targets for him to shoot at.
    We don't know how to do that yet. In the 1960s and 1970s, 
we did it by pouring a lot of concrete at our bases in Germany. 
It worked well because the adversary didn't have highly 
accurate weapons. That is not likely to work now.
    It is going to be a combination of things: dispersal, 
getting used to using austere facilities, simple things like 
rapid runway repair, fuel bladders, things like that. But it is 
a mix of things, and we have to try it, we have to learn it, we 
have to practice it. And then we have to resource this.
    And, two, again, finding ways to locate, identify, track, 
engage, damage, and destroy enemy forces on the move in the 
opening hours of a war. Before we have been able to roll back 
the air defense, before we have been able to achieve maritime 
superiority, reaching into that bubble to attack.
    Mr. Forbes. So you are looking at more offensive capability 
than just defensive capability?
    Mr. Ochmanek. I think it is offensive strike capability in 
the service of a defensive strategy, yes.
    Mr. Forbes. Thank you.
    Mr. Hunter.
    Mr. Hunter. It is a long list of questions. I think----
    Mr. Forbes. Pick two you like.
    Mr. Hunter [continuing]. I got them down.
    I would say two assumptions that I think we may have or may 
make that will be wrong, I think we are wrong if we think we 
know where the fight will be. I don't think we do know where 
the fight will be, and we will probably be surprised. That has 
been a lesson of recent history.
    Mr. Forbes. Your former chairman loved to testify that I 
think he had 13 conflicts while he was here, and 12 of them we 
did not predict.
    Mr. Hunter. Exactly.
    Second--and maybe this is a Pentagon perspective; I am 
still a recent escapee--is the assumption that regular order is 
better, better than the alternatives that have been created 
over the last several years, that we are more insightful when 
we take a longer period of time to make a decision.
    I do think that analysis is critical, and I am not in any 
way meaning to downplay the importance of it. But our regular-
order processes are not holy writ. And there is still a 
tendency, as we come out of the conflicts that we have been in, 
as much as we can, over the last 10 years, that if we could 
just get back to regular order things would work much better. 
And I think that is a false assumption.
    Mr. Forbes. And the two things are not mutually exclusive, 
you know, to be able to----
    Mr. Hunter. Exactly.
    Two next steps. I am going to agree--I know it is a little 
bit boring, but I am going to agree with Dave on the 
criticality of experimentation, work on operational concepts, 
and the net assessment that he mentioned. Those are things that 
need to be substantially reinforced and upgraded. And, as you 
know, we changed our structure for engaging in that work in the 
last several years, and I am not sure it has yet reached a new 
balance where it ought to be in those capabilities.
    And the second step is we need to work with industry, 
because they are the key to the problem. There is no innovation 
without talking to industry. And by that, I don't necessarily 
mean what we think of as the traditional defense industry, the 
big six contractors of the Department of Defense. I mean 
industry more broadly. Because it is a global and fully open 
industry now that is creating the kinds of technologies that 
are relevant to the problems we are trying to solve.
    On how to protect intellectual property, I think you have 
to look at what industry's incentives are. Although they 
clearly have a business incentive to protect their intellectual 
property, they don't necessarily have the incentive to protect 
it in the way that we would like that to occur. We need to talk 
to them about what are the incentives that they need to do what 
we want them to do in regards to their intellectual property.
    And then on allies, I think we have to change the culture 
of the government. This is not just a DOD problem, but there is 
still a perception that we protect technology by holding it 
tight. And that is just, I think, not in accord with the 
reality of a global industrial complex that is out there, that 
is in the world that we are living in. We can't achieve that 
goal. And it only inhibits our ability to access technology, 
the best technology, when that resides in companies that are 
overseas.
    Mr. Forbes. Okay. Thank you.
    Mr. Brimley.
    Mr. Brimley. Yes, sir. Quickly, I will take on flawed 
assumptions and next steps.
    On flawed assumptions, you will hear echoes of the--me echo 
the statements of my colleagues.
    Number one, that the U.S. will maintain dominance in the 
guided-weapons regime. As I said in my written statement and my 
oral statement, I think that assumption is false. I think it is 
false today. It is certainly going to be false 5, 10, 15 years 
from now. I think there is an indication--I mean, planners in 
the Department are moving in this direction, but I think, you 
know, keeping up that focus in the years ahead will be 
important.
    And, number two, another flawed assumption is that the U.S. 
will be able to compensate for a loss in the first-mover 
advantages that one might accrue from being aggressively moving 
in the unmanned and robotic warfighting regime. I think, given 
where the intellectual ideas are emanating from, it is not like 
the 1970s, where it is sort of a DOD-focused S&T [science and 
technology] R&D. These ideas are emanating--you know, autonomy 
is happening in Silicon Valley, it is emerging overseas. I 
worry that we are not going to be able to catch up if we fail 
to move and move decisively in the next, say, 5 years.
    In terms of next steps, I would just encourage Members to 
make sure that the next budget submission reflects these 
rhetorical priorities. I think we ought to hold the Pentagon 
leadership accountable for the rhetorical priorities that it 
has talked about.
    I think we have talked about some program-specific canaries 
in the coal mine. If you are serious about the offset strategy, 
here are a couple programs where we can see indications about 
how the Department is moving. That is going to be very 
important, I think, in the next 4 to 5 months.
    And, number two, just to continue doing what you are doing. 
I think, for this subcommittee and for the House committee writ 
large, I would encourage you to develop a year-long series of 
hearings to fully explore this issue, whether it is a hearing 
on undersea dominance and payload capacity, a hearing on 
maritime experimentation, a hearing on alternative air and 
maritime concepts of operations, where we could start talking 
about these things more fulsomely in the public domain, and 
maybe a hearing on what the role of allies and partners is.
    And as you pursue, perhaps the allies and partners one is 
an interesting one. If you call a bunch of defense nerds like 
us to the table, we will all basically agree with one another. 
But I think it would be interesting if you called in some 
regional--some responsible regional players from, say, the 
Pentagon or the State Department for a hearing like this and 
really force bridges to be built between, sort of, functional 
defense expertise in the Department and the more regional 
policy expertise. That could be a very valuable thing.
    Mr. Forbes. Mr. Martinage, we will let you have the last 
word.
    Mr. Martinage. Great. Thank you very much, Congressman 
Forbes.
    On the two flawed assumptions, there are so many, I am not 
sure where to begin. But the two that I think stick out most to 
me is the assumption of close-in operational sanctuaries, 
whether it is airfields, carriers forward, surface combatants 
forward, airborne tanking forward. We are unlikely to be able 
to operate that way in the future.
    And the second is our freedom of operation, our use of 
space in the electromagnetic spectrum. I think those are both 
going to be increasingly contested, with a lot of cascading 
ramifications for how we think about the joint force and how it 
operates.
    I would echo really what all my colleagues have said on 
point two--the experimentation, the war-gaming, the conceptual 
development, I think that is all critical.
    And, as Shawn said, while we don't have a crystal ball, I 
think some near-term wins of things that are put forward under 
the offset-strategy umbrella, like the VPM [Virginia Payload 
Module] or UCLASS or directed energy or UUVs and unmanned 
systems--we are pretty sure that those things are going to 
figure prominently in the future. You know, we can work out the 
details later, but I think those are all--would be candidate 
near-term wins.
    In terms of the private sector, I agree on, you know, the 
importance of bringing them in and, you know, minimizing, you 
know, espionage and theft. I think the bigger fundamental 
problem is private industry doesn't really want to work with 
the Department of Defense, because they put their IP 
[intellectual property] at risk, their profit margins are 
constrained, or, you know, they have--very narrow, they have a 
ton of red tape and regulations to deal with. So, generally 
speaking, a lot of the cutting-edge R&D that is out there in 
the private sector, they are not interested in working with the 
Department of Defense. Which gets back to, you have to fix our 
acquisition processes in the Department.
    And then, lastly, on allies, I think if we come up with a 
compelling strategy, I think our allies will kind of help us 
figure out what they can do to support it. I think we need to 
bring them into the tent as we get this further along. I mean, 
the process is just starting in the Department. It is probably 
going to take some months or a year to flesh out the strategy, 
but I think once we do, I think our allies will want to try to 
help.
    And I think there are likely to be some key roles in 
command and control, communications, logistics, basing, as well 
as potentially helping to field and develop some of these new 
capabilities. Working with some of our closer partners, I think 
that is possible, as well, to help share some of the burden of 
doing that.
    But, again, I thank you for the opportunity to speak today. 
Thank you for the subcommittee's interest in this, I think, 
very important area. And, as Shawn said, I think a series of 
hearings over the next year or two to keep people's feet to the 
fire and keeping this on the rails would go a long way.
    But thank you.
    Mr. Forbes. We thank all of you for your help. As you know, 
DOD has kind of launched their first volley at this. This is a 
congressional first volley. And we are going to be doing this 
for a long time, I am sure, as we try to get our hands around 
what we need to do and how we need to move forward. So we 
appreciate your help today, and we are going to continue to try 
to pick your brains as we move forward.
    So, with that--do you have anything else that you have?
    With that, thank you, gentlemen, for being here.
    And we are adjourned.
    [Whereupon, at 5:31 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                            December 2, 2014

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 2, 2014

=======================================================================

      
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
    
    
 
    .
    
                                <all>
</pre></body></html>
